No. _ _ __
ANDREA LEA, in her official capacity
as Auditor of the State of Arkansas,

Petitioner,
V.

UNITED STATES, et al.,

Respondents.

CERTIFICATE OF SERVICE
I, John D. Ohlendorf, a member of the Supreme Court Bar, certify that
I did, on the 8th day of May, 2020, send out from Washington, D.C., two packages each containing three copies of the PETITION FOR WRIT OF CERTIORARI and one copy of the APPENDIX in the above entitled case. All parties
required to be served have been served by third-party commercial carrier for
delivery within 3 calendar days. Packages were plainly addressed to the following:
Noel J. Francisco
Solicitor General of the United States
Counsel of Record for Respondent United States
DEPARTMENT OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL
950 Pennsylvania Avenue NW
Room 5616
Washington, DC 20530-0001
(202) 514-2203
supremectbriefs@usdoj.gov
David Charles Frederick
Counsel of Record for Respondent LaTurner
KELLOGG, HUBER, HANSEN,
TODD, EVANS & FIGEL, PLLC
1615 M Street, NW
Sumner Square
Ste 400
Washington, DC 20036
(202) 326-7900
dfrederick@kellogghansen.com

To be filed for:

H. THOMPSON
Counsel of Record
PETER A. PATTERSON
DAVID

JORN D. OHLENDORF
COOPER & KIRK, PLLC

1523 New Hampshire
Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
dthompson@cooperkirk.com

Counsel for Petitioner

Jlb oLu-) j--WJ;

Date: May 8, 2020

John D. Ohlendorf I
Counsel for PetitioneA

2

